j^fcite Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 4, 2021
Before
DIANE S. SYKES, ChiefJudge
JOEL M. FLAUM, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge

No. 20-1185
JEFFERY FERGUSON,
Plain tiff-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

v.
No. 19 C 4607
COOK COUNTY CORRECTIONAL
FACILITY/CERMAK, et al.,
Defendants-Appellees.

O

Matthew F. Kennelly,
Judge.

ORDER

On consideration of the petition for rehearing and for rehearing en banc filed by
Plaintiff-Appellant on December 8, 2020, no judge in active service has requested a vote on
the petition for rehearing en banc, and the judges on the original panel have voted to deny
rehearing.
Accordingly, the petition for rehearing is DENIED.

A^e^d iy f?T
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Untirh

Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 10, 2020'
Decided November 13, 2020
Before

DIANE S. SYKES, ChiefJudge
JOEL M. FLAUM, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
No. 20-1185
JEFFREY FERGUSON,
Plaintiff-Appellant,

v.
COOK COUNTY CORRECTIONAL
FACILITY/CERMAK, et al.,
Defendants-Appellees.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 19 C 4607
Matthew F. Kennelly,
Judge.

ORDER
Jeffrey Ferguson, a pretrial detainee at Cook County Jail in Chicago, filed suit
under 42 U.S.C. § 1983 alleging that the law enforcement officers and medical providers
who interacted with him after his arrest failed to properly address his mental-health
' The appellees were not served with process and are not participating in this
appeal. Because the appellant's brief and the record adequately present the facts and
legal arguments, and oral argument would not significantly aid the court, the appeal is
submitted on the appellant's brief and the record. Fed. R. App. P. 34(a)(2)(C).

No. 20-1185

Page 2

needs. He primarily alleges that his deteriorating mental health and new arrests after
posting bond resulted from the defendants' failure to follow through on an order to
involuntarily commit him. After affording Ferguson two chances to amend his
complaint, the district court dismissed the case at screening. Because Ferguson's
complaint does not plausibly allege that any of the county- or city-employed defendants
acted at least recklessly towards him, and the privately employed defendants are not
subject to suit under § 1983, we affirm.
According to the allegations in Ferguson's complaint, which we take as true at
the pleading stage, see Schillinger v. Kiley, 954 F.3d 990, 994 (7th Cir. 2020), a Chicago
police officer arrested Ferguson in 2018 for allegedly committing residential arson and
took him to a neighborhood station for interrogation. Ferguson was acting erratically
and making delusional statements, so the officer transferred Ferguson to Cermak
Health Services at the Cook County Jail for psychiatric services. Aaliyah Balawender, a
physician's assistant, treated him there for four days, under the direction of a clinical
psychiatrist. Then, Ferguson was granted an individual (personal-recognizance) bond
and ordered to be on house arrest until trial. Balawender, however, completed an
inpatient certificate stating Ferguson presented a danger to himself and others. She
sought his involuntary admission at Mt. Sinai Hospital under Illinois's civil
commitment laws. A Cook County sheriff's deputy transported Ferguson to Mt. Sinai's
emergency room and presented the certificate. Medical providers evaluated Ferguson
upon arrival and, after determining he did not require hospitalization, discharged him.
The deputy sheriff then drove him home, where he began house arrest with electronic
monitoring.
Ferguson remained in a psychotic state, with no recollection of being transported
from Mt. Sinai to his apartment. Alone in his apartment, his mental health continued to
deteriorate. A staff member at Cermak that Ferguson believes to be Balawender called
Ferguson's father to express concern that he was mentally unstable, but no further
action was taken by any defendant. Soon after, Ferguson was arrested for battery and
other offenses and is now in jail awaiting trial.
Ferguson brought a § 1983 claim against Cermak and Mt. Sinai Hospital,
asserting that if his mental condition had been properly stabilized after his initial arrest
for residential arson—his first ever felony arrest—he would not have gotten into trouble
again. He later added as defendants (mostly as John or Jane Does) the arresting police
officer, Balawender and the supervising psychiatrist, the sheriff's deputy who
transported him to and from Mt. Sinai, and doctors and nurses at Mt. Sinai. The district

No. 20-1185

Page 3

court screened the complaint under 28 U.S.C. § 1915A and, after two amendments,
dismissed the case, concluding that he did not plausibly allege that any Cermak or lawenforcement defendant acted with the requisite state of mind and that the Mt. Sinai
defendants were not amenable to suit under § 1983. Ferguson appeals, and we review
the district court's decision de novo. See Schillinger, 954 F.3d at 994.
On appeal, Ferguson first takes issue with the district court's conclusion that he
failed to allege that the county and city employees acted with the requisite mental state.
To state a claim for deficient medical treatment in violation of the Fourteenth
Amendment, pretrial detainees must plausibly allege that the care they received was
"objectively unreasonable," meaning the defendants acted "purposefully, knowingly, or
perhaps even recklessly." Miranda v. County of Lake, 900 F.3d 335, 353 (7th Cir. 2018);
see Hardeman v. Curran, 933 F.3d 816, 823 (7th Cir. 2019) (extending the objective inquiry
"to all Fourteenth Amendment conditions-of-confinement claims brought by pretrial
detainees"); This requires the defendants' actions rise above negligence and resemble
"something akin to reckless disregard." Miranda, 900 F.3d at 353.
Here, the arresting officer did not act unreasonably by taking Ferguson to the
police station instead of seeking immediate treatment based on his erratic behavior, as
Ferguson insists he should have. Once arrested, Ferguson did not present an immediate
danger to himself or others due to his confinement. See Ortiz v. City of Chicago, 656 F.3d
523, 531 (7th Cir. 2011) (explaining that urgent need for care is a factor arresting officers
must consider). Further, he was not long at the police station. After observing him, the
arresting officer attended to Ferguson's condition by transferring him directly to a
facility (Cermak) where his needs could be further addressed.
Ferguson also contends that the Cermak defendants acted unreasonably by not
ensuring that he was involuntarily committed, as they thought necessary. As an initial
matter, one does not have a constitutional right to be committed or otherwise deprived
of liberty. Wilson v. Formigoni, 42 F.3d 1060,1066 (7th Cir. 1994). Once someone is
released from physical custody (for instance by being bonded out), the detaining
authority no longer has an obligation to provide medical services. Collignon v. Milwaukee
County, 163 F.3d 982, 991 (7th Cir. 1998); see Paine v. Cason, 678 F.3d 500, 508 (7th Cir.
2012) (no decision establishes "a right to be held in custody pending medical
treatment"). Regardless, the allegations do not plausibly suggest that the Cermak
defendants acted recklessly. Balawender's actions reflect a concern for Ferguson and his
treatment: she sought continued care at an appropriate facility and even contacted his

No. 20-1185

Page 4

father to express her concern after Mt. Sinai failed to admit him. Without an ongoing
duty to Ferguson, her conduct was not objectively unreasonable.
Ferguson also did not allege any circumstances suggesting that the deputy
sheriff who transported him to Mt. Sinai and later to his apartment acted unreasonably.
He appropriately deferred to the judgment of medical providers at Mt. Sinai, see Berry v.
Peterman, 604 F.3d 435, 440 (7th Cir. 2010), who determined that Ferguson need not be
involuntarily committed. Though Ferguson alleges that the deputy acted recklessly by
leaving him alone under house arrest despite his psychotic state, he had just been told
that Ferguson did not require commitment, only medication. Though Ferguson argues
that he should have been taken back to Cermak at this point, he had no such right to be
taken back into physical custody for further treatment. See Paine, 678 F.3d at 507-08
(citing Stevens v. City of Green Bay, 105 F.3d 1169 (7th. Cir. 1997)).
As for the Mt. Sinai defendants, we do not agree with the district court that
Ferguson's claims fail because, having posted his individual bond and having left
Cermak (i.e., jail), he was not in custody at the time. Though someone on bail subject to
electronic monitoring arguably is not in custody, see Reno v. Koray, 515 U.S. 50, 57, 63
(1995), the events at Mt. Sinai happened before Ferguson was taken home. A deputy
sheriff brought a handcuffed Ferguson to and from Mt. Sinai in his cruiser, so Ferguson
was in the custody of the Cook County Sheriff's Department until he was released at his
apartment. See DeShaney v. Winnebago Cty. Dep't of Soc. Servs., 489 U.S. 189, 200 (1989).
Of course, the mere fact that Ferguson was in custody at the time is not sufficient
to expose the Mt. Sinai defendants to § 1983 liability. See Spencer v. Lee, 864 F.2d 1376,
1382 (7th Cir. 1989). Dismissal was still proper because they did not act under the color
of state law. See 42 U.S.C. § 1983. Private actors do not expose themselves to suit under
§ 1983 simply by being involved in the involuntary commitment process, although a
private actor may function as a state actor if compelled by the state to commit a
mentally ill patient or if contracted by the state to provide detainees with medical care.1
Spencer, 864 F.2d at 1377; see Miranda, 900 F.3d 346-47. Here, the allegations do not
support an inference that Mt. Sinai had to admit Ferguson. Illinois law does not force a

1 As we presume the district court did, we can take judicial notice of Mt. Sinai's
status as a private, not-for-profit corporation. See White v. Keely, 814 F.3d 883, 885 n.2
(7th Cir. 2016); Sinai Health System's Corporation File Detail Report, OFFICE OF THE ILLINOIS
Secretary of State, https://www.ilsos.gov/corporatellc/CorporateLlcController (last
visited Nov. 10, 2020).

No. 20-1185

Page 5

receiving institution to commit a patient; instead, medical professionals must conduct
an independent examination and release a patient who, in their judgment, does not
require commitment. See 405 ILCS 5/3-610. Additionally, Ferguson's complaint makes
clear that Balawender had Ferguson sent to Mt. Sinai under the civil-commitment laws
because he was not a detainee anymore, so Mt. Sinai was not acting as a contractor for
detainee healthcare. West v. Atkins, 487 U.S. 42, 56 (1988) ("[T]he dispositive issue
concerns the relationship among the State, the physician, and the prisoner.").
Finally, Ferguson argues that the defendants violated numerous Illinois statutes
during the commitment process and that certain doctors and nurses at Mt. Sinai
committed medical malpractice by not medicating him or admitting him. Like the
district court, we express no opinion on any violations of state law, except to say that
they do not correspond to violations of the Constitution necessary to form the basis for
a § 1983 claim. See Manuel v. City ofJoliet, 137 S. Ct. 911, 916 (2017); Waubanascum v.
Shawano County, 416 F.3d 658, 670 (7th Cir. 2005). The district court dismissed any statelaw claims without prejudice, so Ferguson can pursue them in state court (and it
appears that he is).
We have considered Ferguson's other arguments, and none has merit.
AFFIRMED

6v\

dix Q

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Jeffrey Dean Ferguson (#2018-10122076), )
Plaintiff,
v.
Cook County Correctional
Facility/Cermak, and Mt. Sinai Hosp.
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. 19 C 4607
Appeal No. 20-1185
Hon. Matthew F. Kennedy

ORDER
Plaintiffs motion to amend the judgment [16] is denied. Plaintiffs notice of appeal [19] is
now effective, see Fed. R. App. P. 4(a)(4)(B), and his motion for extension of time to file a notice
of appeal [17] is denied as moot, because his timely Rule 59(e) motion suspended the deadline for
filing an appeal until the motion was ruled upon. See Fed. R. App. P. 4(a)(4)(A)(iv). Plaintiffs
motions to proceed on appeal in forma pauperis [18] [26] are granted. The Court orders the trust
fund officer at Plaintiffs place of incarceration to immediately deduct $18.58 from Plaintiffs
account for payment to the Clerk of Court as an initial partial paynient of the filing fee and to
continue making monthly deductions in accordance with this order. The Court directs the Clerk
to send a copy of this order (electronically, if possible) to the trust fund officer of the facility having
custody of Plaintiff and to the Court's Fiscal Department. The Court orders the trust fund officer
at Plaintiffs place of incarceration to make monthly deductions in accordance with this order. The
Clerk is directed to send copies of this order to Plaintiff and the PLRA Attorney, United States
Court of Appeals for the Seventh Circuit.
STATEMENT
Plaintiff Jeffrey Dean Ferguson, an inmate at Cook County Jail, filed the present lawsuit
under 42 U.S.C. § 1983, alleging that Defendants failed to adequately treat his mental health
condition by not securing and/or performing inpatient psychiatric hospitalization on his behalf,
leading ultimately to his commission of additional crimes. On December 30, 2019, after two
opportunities to amend his complaint to state a viable claim, the Court dismissed Plaintiffs second
amended complaint with prejudice for failure to state a claim and entered judgment. On January
21, 2020, Plaintiff filed a motion to reconsider under Rule 59(e). Then, on February 4, 2020,
Plaintiff filed a motion for extension of time to file a notice of appeal, a notice of appeal, and an
application to proceed in forma pauperis on appeal. He filed another application to proceed in
forma pauperis on appeal on February 25, 2020. The Court rules on these motions in this order.
The Court has jurisdiction to decide the Rule 59(e) motion. See Fed. R. App. P.
4(a)(4)(B)(i). Plaintiff filed a timely motion to vacate the judgment under Fed. R. Civ. P. 59(e).

To obtain relief under Rule 59(e), the movant must "clearly establish[ ] a manifest error of law or
fact" or point to newly discovered evidence. Burritt v. Ditlefsen, 807 F.3d 239,253 (7th Cir. 2015).
A Rule 59(e) motion "is not an appropriate forum for rehashing previously rejected arguments."
Caisse Nationale de Credit Agricole v. CBI Indus., Inc., 90 F.3d 1264, 1270 (7th Cir. 1996).
Plaintiffs second amended complaint differed little from the previous two iterations.
Plaintiff alleged that he was arrested and detained at Cook County Jail on January 20, 2018. Four
days later, on January 24, 2018, Plaintiff bonded out of the Jail and was ordered to be placed on
electric monitoring,. That same day, Cermak (the Jail's healthcare unit) medical personnel
evaluated Plaintiff, documented that he was in a psychotic state and a danger to himself and others,
gave him several medications, and ordered his transfer to a hospital for inpatient psychiatric
hospitalization. Cook County Sheriffs personnel transported Plaintiff to Mt. Sinai Hospital for
stabilization and inpatient psychiatric care. But instead of admitting Plaintiff, medical personnel
at Mt. Sinai evaluated and discharged Plaintiff the next day, thereby contradicting Cook County’s
orders. A Cook County Sheriffs employee transported Plaintiff back to his apartment and placed
him on electronic monitoring. The Cermak personnel followed up by calling Plaintiffs father and
relaying concern that Plaintiff was unstable and alone in his apartment. Nonetheless, in early
February 2018, Plaintiff was arrested for criminal damage to property and aggravated battery and
was again detained at Cook County Jail, then "in a full state of psychosis".
The Court concluded that Plaintiffs allegations did not state a viable federal claim. As to
the Cook County Defendants (the Cermak and other Sheriffs personnel), the Court explained that
Plaintiffs allegations did not demonstrate the mental-state element of a Fourteenth Amendment
claim, namely that they provided inadequate medical care "purposefully, knowingly, or perhaps
even recklessly" as to the consequences of the careN; See Miranda v. County ofLake, 900 F.3d 335,
352-54 (7th Cir. 2018). To the contrary, the actions of the Cook County defendants, as pleaded,
demonstrated attentiveness and concern for Plaintiffs situation: they evaluated Plaintiff,
appreciated the extent of his mental illness by ordering inpatient hospitalization, transported
Plaintiff to the hospital, and then upon Plaintiffs discharge, contacted his father. With respect to
the Mt. Sinai Defendants, the Court explained that their care decisions were not an actionable basis
of a federal civil rights claim because a person discharged from jail, even if under electronic
monitoring, no longer has a federal constitutional right to medical treatment. See Hubbard v. Cope,
2008 WL 2410856, at *3 (S.D. Ill. June 11,2008); see also generally DeShaney v. Winnebago Cty.
Dep't of Soc. Servs., 489 U.S. 189, 200 (1989). The Court noted that Plaintiff may have a statecourt remedy regarding the Mt. Sinai defendants' decision to discharge him, but he had no federal
claim against them. Accordingly, the Court dismissed Plaintiffs second amended complaint for
failure to state a claim. Concluding that a third opportunity to amend would be futile, the Court
entered judgment dismissing Plaintiffs action, without prejudice to Plaintiffs ability to pursue any
related state-law claims in an appropriate forum.
In his Rule 59(e) motion, Plaintiff first contends that the Cook County Defendants had a
duty to "follow through" (how, he does not explain) on their own referral for inpatient psychiatric
hospitalization, but failed to do so. Plaintiff, however, makes no compelling argument nor cites
any on-point authority indicating that federal law guaranteed him inpatient hospitalization or
required any further action by Cook County after Mt. Sinai medical personnel decided to discharge
2

7*7

^

^v. ez.'o^.

t£^ w .qU f^

^________ ■ —

Og&zty

Plaintiff from the hospital. Plaintiff has not shown an error in the Court's determination that the©
Cook County Defendants are not federally liable for failing to somehow override Mt. Sinai's
decision under these facts.
\
<*>

,
^

£

Plaintiff also argues that he should be permitted to proceed against the Cook County
Defendants because they failed to provide him with anti-psychotropic medication upon his release. ^ iR
W I*.
Plaintiff alleged that "to the best of Plaintiffs knowledge, he was not provided with a 30-day supply
a
of psychotropic medications, nor given after-care instructions by Cermak Medical Facility." He
cites Wakefield v. Thompson, 177 F.3d 1160, 1164 (9th Cir. 1999), in which the Ninth Circuit
recognized that the state may owe a former inmate requiring medication after his release an
affirmative duty for a reasonable transitional period, because a prisoner's ability to secure
medication for himself "is not restored the instant he walks through the prison gates and into the
civilian world." Id. at 1164; see Braxton v. Outagamie Cty., No. 17-CV-1072-PP,_2018 WX
4374935, at *3 (E.D^Wis. Sept. 13, lUTST(former inmate's allegation tRafj^fkofficials refused to
call medical staff to obtairThis psychiatric medications, so he was released without them, survived
screening); Rvan v. Armor Health, No. 17-C-1156, 2018 WL 2324110, at *3 (E.D. Wis. May 22,
2018) (former inmate couldproceed on claimthat Nurse ignored policy of~provifting release
medication, despite knowledge of risk to plaintiff of skipped doses): Charles v. Cty. of Orange,
NoTl6-CV-5527 (NSR), 2017 WL 4402576, at *9 (S.D.N.Y. Sept.J29-.2017) (civil detainees’
allegation that they could not obtain necessary and immediate medical care upon their release
survived a motion to dismiss); cf. George v. Rockland State Psychiatric Ctr., No. 10-CV-8091
NSR, 2014 WL 5410059, at *8 (S.D.N.Y. Oct. 23, 2014) (rejecting parolee's due process claim
when the parolee was able to arrange his own medical treatment); McGhie v. Main, No. 11 CV
3110, 2011 WL 4852268, at *3 (E.D.N.Y. Oct. 12, 2011) (same); Kennedy v. Correct Care Sols.,
No. 05:17CV00168 DPM/PSH, 2017 U.S. Dist. LEXIS 111357, at *4-5 (E.D. Ark. June 26,2017)
(finding no binding precedent establishing a constitutional right to post-release medical care). This
case differs from Wakefield and others allowed to proceed because Plaintiff does not allege that.
Cook County ignored his need for treatment upon release. To the contrary, Cook County ordered
^
that Plaintiff receive inpatient hospitalizationand transported him to an outside hospital. The
V ^
County would have been justified in assuming that any follow-up care, including medications,
^
would be determined, communicated, and proYicled to Plaintiff by hospital personnel.

r /

Last, as to the Mt. Sinai Defendants, Plaintiff argues that the Court's analysis is flawed
because, he savs. he was "still a detainee" when he went to Mt. Sinai Hospital. He states that he
left the Jail in handcuffs, arrived at Mf. Sinai in handcuffs, was not in a position to discharge
himself if he so chose, and left Mt. Sinai in handcuffs: Even consideri^T'ftg^i~newft^ts^>laintifr
has still not stated a claim against thFMtrSmai Defendant£.--'The fundamental problenf^ith
Plaintiffs claim against the MX Sinai Defendants is that private parties, like the medical
professionals qt the hospital who.evaluated Plaintiff, cannot be_held liable under § I983_unless>
they werejacting under color of stateia^vhen they treated him. See, e.g., Parratt v. Taylor, 451
U.S. 527, 535 (1981), overruled on other grounds by [Daniels v. Williams, 1474 U.S. 327 (1986).
Although Plaintiff was originally escorted to the hospital at theJaehest of Cook County (and a Cook
County official remained with himkfatissue .here is^the_jmilateral decision of the~"MtlSinaL
personnel - contrary to Cook County’s directions^ notto commit PlaintifCfoE-inpatient psychiatric ^
treatment. There is no allegation that the hospital personnel acted) iixconcert with stateaj^grsJ

^

■ ^i

OF

v
t
6^

3

k

/;

it

iP‘"'

*

^

Absent that, Seventh Circuit precedent forecloses finding state action. In Spencer v. Lee, 864 F.2d
1376 (7th Cir. 1989) (en banc), the Seventh Circuit concluded that a private phvsiciaiLand hospital
that detained plaintiff against his will under Illinois' involuntary commitment statute and provided
allegedly infirm care were not state actors. The court found that Illinois neither compelled nor
encouraged commitment simply because it enacted provisions for the involuntary admission of
mentally ill persons, id. at 1379, and that involuntary civil commitment of the mentally ill was not
traditionally a governmental function, id. at 1379-81. See also Flanagan v. Methodist Hosv. of
Chicago. No. 95 C 7287, 1996 WL 374131, at *3 (N.D. Ill. June 28, 1996) (same held true private hospital not a state actor - where determination that plaintiff should be committed
originated with recommendation of city social worker and police officer). The decision not to
commit, rather than to commit, a patient makes no difference under this state-action analysis.
Given the absence of state action, any claims against the Mt. Sinai Defendants are not viable
federal claims.
For these reasons, the Court denies Plaintiffs Rule 59(e) motion.
Finally, the Court finds that Plaintiffs appeal is taken in good faith, see 28 U.S.C.
§ 1915(a)(3), and he appears currently unable to prepay the full $505 appellate filing fee.
Following a review of Plaintiffs in forma pauperis applications and his trust fund ledgers, the
Court grants his applications and pursuant to 28 U.S.C. § 1915(b)(1), (2), orders Plaintiff to pay
(and the facility having custody of him to automatically remit) an initial partial filing fee of $18.58.
Plaintiff is further ordered to pay (and the facility having custody of him to automatically remit)
to the Clerk twenty percent of the money he receives for each calendar month during which he
receives $10.00 or more, until the $505 appellate filing fee is paid in full. The Court directs the
trust fund officer to ensure that a copy of this order is mailed to each facility where Plaintiff is
housed until the filing fee has been paid in full. All payments shall be sent to the Clerk of Court,
United States District Court, 219 South Dearborn Street, Chicago, Illinois 60604, attn: Cashier's
Desk, 20th Floor, and should clearly identify Plaintiffs name and the case number assigned to this
case. The inmate trust account office shall notify transferee authorities of any outstanding balance
in the event of Plaintiffs transfer to another correctional facility.
Date:' 3/5/2020

UAA1M
MATTHEW F. KENNELLY
United States District Judge

4

*c

\

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Jeffrey Dean Ferguson (#2018-10122076), )
Plaintiff,
)
v.
Cook County Correctional
Facility/Cermak, and Mt. Sinai Hosp.
Defendants.

)
)
)
)
)
)

Case No. 19 C 4607
Judge Matthew F. Kennelly

ORDER
For the reasons stated below, the Court directs the Clerk to enter judgment dismissing this
case with prejudice, but without prejudice to Plaintiffs ability to pursue any state-law claims in
state court. This counts as one of Plaintiffs three allotted dismissals under 28 U.S.C. § 1915(g),
Plaintiffs motion for attorney representation [11] is terminated as moot.
STATEMENT
Plaintiff Jeffrey Dean Ferguson, an inmate at Cook County Jail, has filed a pro se lawsuit ‘
under 42 U.S.C. § 1983. He claimed in his original and first amended complaints that Defendants
failed to adequately treat his mental health condition by not securing and/or performing inpatient
psychiatric hospitalization on his behalf, leading ultimately to his commission of additional crimes.
Plaintiff has submitted a second amended complaint, which the Court has reviewed under 28
U.S.C. § 1915A to determine if it is frivolous or fails to state a claim upon which relief may be
granted. In doing so, the Court has read the second amended complaint liberally and takes
Plaintiffs factual allegations as true.
•
The allegations contained in Plaintiffs submission are substantially similar to those in the
prinr versions of the complaint and therefore do not state a claim. Plaintiff continues to allege that
he was arrested and detained at Cook County Jail on January 20, 2018. Medical personnel at the
Jail evaluated Plaintiff and ordered that he be transferred to a hospital for inpatient psychiatric
hospitalization. Plaintiff bonded out of the Jail four days later, on January 24, 2018, and Cook
County personnel transported him to Mt. Sinai Hospital for the inpatient psychiatric care. But
instead of providing care, Mt. Sinai personnel discharged Plaintiff the next day, thereby ignoring
Cook County’s orders. A Cook County employee transported Plaintiff back to his apartment and
placed him on electronic monitoring. Cook County medical personnel followed up by calling
Plaintiffs father and relaying concern that Plaintiff was unstable and alone in his apartment.
Nonetheless, in early February 2018, Plaintiff was arrested’ for criminal damage to property and
aggravated battery and was again detained at Cook County Jail, then "in a full state of psychosis".
For the reasons explained in the prior orders of this Court, these allegations do not state a
viable claim under federal law. As explained more fully in those orders, Plaintiff does not
sufficiently allege the mentaPstate element of a Fourteenth Amendment claim, namely that Jail

!.

*
••

:

. i'

s

■

.!

a5S

^

V-

;Ug«^+"

(

personnel provided inadequate medical care "purposefully, knowingly, or perhaps even recklessly"
with regard to the consequences of the care. See A ;randa v. County of Lake, 900 F.3d 335, 35254 (7th Cir. 2018); see also Grant v, Schmidt. No JlK-2680. 2019 WL 6697142, at *2 (7th Cir.
Dec. 9. 2019) (in Eighth Amendment context, relfefosed inmate could not plead mental-state
element because he could not show thatfcommission of future crimes was reasonably foreseeable
consequence of lack of mental-health~ffgatment in prison). The actions ofthe CooklSotmiv--'
defendants, as alleged, reflect attentiveness and concern for Plaintiffs situation: they evaluated
Plaintiff, appreciated the extent of his mental illness by recommending inpatient hospitalization,
transported Plaintiff to the hospital, and then upon Plaintiffs discharge, contacted his father. With
respect to the Mt. Sinai Defendants, the Court has already explained to Plaintiff that their decisions
do not provide a basis for a claim under federal law, because a person under electronic monitoring
does not have a federal constitutional right to medical treatment. See Hubbard v. Cope, 2008 WL
2410856, at *3 (S.D. Ill. June 11, 2008); see also generally DeShaney v. Winnebago Co. Dept, of
Soc. Servs., 489 U.S. 189, 200 (1989). Plaintiff has not alleged that his electronic monitoring
limited his freedom to seek mental health treatment on his own.. Plaintiff may be able to pursue a
lawsuit under state law (in state court) regarding the Mt. Sinai defendants’ decision to discharge
him from the hospital, but he has viable claim under federal law.
Accordingly, the Court dismisses Plaintiffs this case—specifically, Plaintiffs federal
claims—for failure to state a claim upon which this Court can grant relief. The Court has already
given Plaintiff two opportunities to amend, and he appears to have set forth his best case. As such,
any further amendment would be futile. This dismissal counts as one of Plaintiffs three allotted
dismissals under 28 U.S.C. § 1915(g), but is without prejudice to Plaintiffs ability to pursue any
related state-law claims in state court.
If Plaintiff wishes to appeal, he must file a notice of appeal with this Court within thirty
days of the entry of judgment. See Fed. R. App. P. 4(a)(1). If Plaintiff appeals, he will be liable for
the $505.00 appellate iillngTee regardless of the appeal’s outcome. See Evans v. III. Dep't ofCorrs.,
150 F.3d 810, 812 (7th Cir. 1998). If Plaintiff seeks leave to proceed in forma pauperis on appeal
so that he may pay the appellate filing fee in installments, he must file a motion seeking leave to
do so in this Court. See Fed. R. App. P. 24(a)(1). His motion must include his intended grounds
for appeal. If the appeal is found to be non-meritorious, Plaintiff could be assessed another "strike"
under 28 U.S.C. § 1915(g). If Plaintiff accumulates three dismissals under 1915(g), he will not be
able to file an action in federal court (except as a petition for habeas corpus relief) without
prepaying the filing fee unless he demonstrates that he is in imminent danger of serious physical
injury. See 28 U.S.C. § 1915(g).
Date: 12/30/2019
MATTHEW F. KENNELLY
United States District Judge

2

&■-

d '* J3

A
IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Jeffrey Dean Ferguson (#201810122076),
Plaintiff,
v.
Cook County Correctional
Facility/Cermak, and Mt. Sinai Hosp.
Defendant.

)
)
)
)
)
)
)
)

Case No. 19 C 4607
Judge Matthew F. Kennelly

ORDER
The Court denies Plaintiffs motion for leave to file [7]. The Court has reviewed the
proposed amended complaint under 28 U.S.C. § 1915A and finds that it fails to state a federal
claim upon which relief can be granted. Plaintiff is given until November 12, 2019 to submit a
proposed second amended complaint that states a federal claim if he believes he can do so in
accordance with this order. Failure to do so will result in dismissal of this case with prejudice for
failure to state a claim. The Clerk is directed to mail Plaintiff a copy of this order and a blank
amended complaint form. Plaintiffs motion to proceed pro se [6] is stricken as unnecessary.
STATEMENT
Pro se Plaintiff Jeffrey.Dean Ferguson, a detainee at Cook County Jail, has filed suit under
42 U.S.C. § 1983, challenging medical care provided to him at the Jail during a prior detention in
January 2018. The Court dismissed Plaintiffs original complaint, with leave to amend. The Court
has reviewed Plaintiffs proposed amended complaint under 28 U.S.C. § 1915 A to determine if it
is frivolous or fails to state a claim upon which relief may be granted. In doing so, the Court reads
the amended complaint liberally and takes^gfaintiff s factual allegations as true.
Plaintiff alleges that on January 20, 20.18, he was arrested for residential arson. Officer
John Doe #1 saw that Plaintiff was erratic and making delusional statements but refused to "treat
the Plaintiff medically" before interrogating and arresting him. Plaintiff was detained at Cook
County Jail but bonded out on January 24, 2018 and was placed on house arrest. Cook County
Physician Assistant Balawender prepared an inpatient certificate that stated that Plaintiff] was
"currently manic, unable to provide for his own basic needs, labile, grandiose, delusional, and
making threatening statements to peers and staff. . . [and] was ’a danger to self and others.'"
Balawender ordered transfer of Plaintiff to a hospital-for inpatient psychiatric hospitalization. But
Balawender, along with Dr. John Doe #2 and R.N. Jane Doe #3 (both Cook County Jail
employees), ultimately failed-to ensure he received that inpatient psychiatric care. Once Plaintiff
bonded out of Cook County Jail, Officer John Doe #4 (another Cook County. employee)
transported him to Mt. Sinai Hospital for the inpatient psychiatric care. But Mt. Sinai personnel,
specifically Dr. John Doe #6 and R.N. Jane Doe #5, discharged Plaintiff, thereby ignoring Cook
County's orders and despite "knowledge of an emergency." Officer John Doe #4 took Plaintiff to
his apartment, where he was on house arrest. The next day, January 25, 2018, PA Balawender
cF ^

o.i

(t -^15
-i*-1 "b

Ax ..

Uy
’(<J- -~i -4-

U.

called Plaintiffs father with concerns that Plaintiff was unstable and alone in his apartment. On
January 31, 2018, Officer John Doe #7 filed false records charging Plaintiff with escape. On
February 4, 2018, Plaintiff was arrested for criminal damage to property and aggravated battery
and was again detained at Cook County Jail, "now in a full state of psychosis."
As in his original complaint, Plaintiff is again claiming that Defendants failed to adequately
treat his mental health condition by not securing and/or performing inpatient psychiatric
hospitalization on his behalf, leading ultimately to his commission of additional crimes. The
Fourteenth Amendment's Due Process Clause governs medical care claims brought bv pretrial
f detainees. See Miranda v. County ofLake, 900 F.3d 335, 352-54 (7th Cin2018). T_o state a claim,
a pre-trial detainee must allege that he was suffering from afsenous" metficalneeijl and that Jail
officialsacted with the requisite mental state, meaning: (1) acteAnowmgly (or nerhapsjrecklessly)
when consideringthe consequences ot how they treated (or did not treat) the medical condition;
and (2) whether the medical treatment was objectively unreasonable. Id. at 353-54. On the first
element, mere negligence is not enough to state a pretrial-detention medical-care claim. Id. at33"3.
The second element is an objective inquiry into the reasonableness of the treatment.

C

7^
^
-

4 ^

The amended complaint cures one of the defects identified in the Court’s original screening
order - Plaintiff now names as Defendants (many in John/Jane Doe form) those persons that were
personally involved in his care, and he has described how each was involved. But it fails to cure
7 t the second defect identified by the Court - the allegations are still inadequate on the mental-state Jk
element. The wrongdoing alleged^irTThe amended complaint largely mirrors that ot tne original
complaint, aside from now being tied to individually named Defendants. As the Court previously
found, the allegations suggest, at the very most, negligence in how the various Jail officials acted,
which is not enough to state a viable d
ess claim. Rather, the actions of the Cook County
defendants, appear to reflect attentiveness and concern for Plaintiffs situation: they evaluated .
^ Plaintiff, appreciated the extent ot hisTflghtalTHness by recommending inpatient hospitalization,
transported him to the hospital, and then upon his discharge, contacted hislatfier. With respect to
the Mt. Sinai defendants, once they saw Plaintiff he was out on bond, i.e., no longer a detainee of ,<r1 O' v J
the government, and thus theiFcare decisions do not give rise to a claim for violation of Plaintiffs—
constitutional rights. A person under electronic monitoring ("house arrest") doesnothave aTederal x f
y
const!tutiotTfllilghliafmedicafireatment. See Hubbard v. Cope, 2008 WL 2410856, at *3 (S.D
^
f
Ill. June 11, 2008); DeShaney v. Winnebago Co. Dept. ofSoc. Servs., 489 U.S. 189, 200 (1989)
(explaining that the government’s "affirmative duty to protect arises not from [its] knowledge o£^ '
the individual's predicament or from its expression of intent to help him, but from the limitation
.
which it has placed on his freedom to act on his own behalf."). There are no allegations in the ^
amended complaint suggesting that Plaintiffs "house arrest" limited his freedom to seek mental ^
vj .VbC
health treatment on his own.
<7 If
Because Plaintiff has failed to cure a defect that led to the dismissal of his original
complaint, the Court dismisses the amended complaint. The Court will give Plaintiff one final
opportunity to submit an amended complaint that states a claim in light of the principles discussed
in this order. If Plaintiff believes he can cure the defects that led to dismissal, he may submit a
second amended complaint by the date set forth above. Any second amended complaint must be
submitted on the Court's required form. See Local Rule 81.1. Any second amended complaint
also must comport with Federal Rule of Civil Procedure 11; Rule 11 provides that by signing a

7

2
i ^

',v")

r

t

pleading, a party represents to the Court that his claims are warranted by existing law and that the
factual contentions have evidentiary support or likely will have evidentiary support after further
investigation. Fed. R. Civ. P. 11(b). Plaintiff must write both the case number and the judge's
name on the second amended complaint, sign it, and return it to the Prisoner Correspondent.
Plaintiff is cautioned that an amended pleading supersedes the original complaint and must stand
complete on its own. Therefore, all allegations against all defendants must be set forth in the
second amended complaint without reference to the prior complaints. Any documents Plaintiff
wants the Court to consider in its threshold review of the second amended complaint also must be
attached. Plaintiff is advised to keep a copy for his files.
Date: 10/15/2019

1mu

NELLY
United States District Judge

3

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Jeffrey Dean Ferguson (#201810122076),
Plaintiff,
v.
Cook County Correctional
Facility/Cermak, and Mt. Sinai Hosp.,
Defendants.

)
)
)
)
)
)
)
)

Case No. 19 C 4607
Judge Matthew F. Kennedy

ORDER
The Court grants Plaintiffs application to proceed in forma pauperis [3]. The trust fund
officer at Plaintiffs place of incarceration is authorized to immediately deduct $16.67 from
Plaintiffs account for payment to the Clerk of Court as an initial partial payment of the filing fee
and to continue making monthly deductions in accordance with this order. The Clerk shall send a
copy of this order electronically to the Supervisor of Inmate Trust Fund Accounts at the Cook
County Jail and to the court’s fiscal department. Summonses will not issue at this time, as the
Court dismisses Plaintiffs complaint [1] for failure to state a federal claim. By 9/9/2019^ Plaintiff
may submit (1) an amended complaint and (2) a completed USM-285 service form for each
defendant named in the amended complaint If Plaintiff fails to comply, the Court will dismiss this
case for failure to state a claim. The Clerk is directed to send Plaintiff an amended civil rights
complaint form, a blank USM-285 form and instructions, and a copy of this order. Plaintiff must .
promptly submit a change-of address notification if he is transferred to another facility. Failure to
do so may lead to dismissal of this action for want of prosecution and failure to comply with a
court order. Plaintiffs motion for attorney representation [4] is denied without prejudice to renewal
if and when Plaintiff files a viable amended complaint.
STATEMENT
Pro se Plaintiff Jeffrey Dean Ferguson, a detainee at Cook County Jail, has filed a lawsuit
under 42 U.S.C. § 1983, claiming that he received improper medical care at the Jail. Plaintiffs
application for leave to proceed in forma pauperis demonstrates that he has insufficient funds in
his jail trust account, to prepay the full filing fee, so the Court grants the application. Under 28
U.S.C. § 1915(b)(l)-(2), the Court orders: (1) the trust fund officer at Plaintiffs place of
incarceration is authorized to immediately deduct $16.67 from Plaintiffs account for payment to
the Clerk of Court as an initial partial payment of the filing fee; and (2) Plaintiff is to pay (and the
facility having custody of him is to automatically remit to) the Clerk twenty percent of the money
he receives for each calendar month during which he receives $10.00 or more, until the $350 filing
fee is paid in full. The Court directs the Clerk to ensure that a copy of this order is mailed to each
facility where Plaintiff is housed until the filing fee has been paid in full. All payments shall be
sent to the Clerk, United States District Court, 219 South Dearborn Street, Chicago, Illinois 60604,
attn: Cashier's Desk, 20th Floor, and shall clearly identify Plaintiffs name and the case number
assigned to this case.

The Court has reviewed Plaintiffs complaint under 28 U.S.C. § 1915A to determine if it is
frivolous or fails to state a claim upon which relief may be granted. In doing so, the Court reads
the complaint liberally and takes Plaintiffs factual allegations as true. Plaintiff alleges that from
approximately mid-December 2017 to early February 2018, he was having symptoms related to
bipolar disorder, including paranoia, delusions, and mania. His symptoms elevated and, on January
20, 2018, he committed arson. When he arrived at Cook County Jail, he was sent to the facility's
medical unit, Cermak, because he was obviously psychotic. Despite his condition, he was bonded
out on January 24, 2018, for $100.00 and ordered to be placed on house arrest with an electronic
monitor. Cermak/CCDOC wrote orders stating Plaintiff required involuntary inpatient psychiatric
hospitalization. "The inpatient certificate stated that [Plaintiff] was 'currently manic, unable to
provide for his own basic needs, labile, grandiose, delusional, and making threatening statements
to peers and staff . . . [and] was 'a danger to self and others.'" Plaintiff was taken to Mt. Sinai
Hospital by the Cook County Sheriffs Department, where an emergency room physician briefly
assessed him and opined that he was fine and just needed to take his medications. Plaintiff was
then taken to his apartment and placed on an electronic monitor by the Sheriffs Department. That
same day, Cermak/CCDOC telephoned Plaintiffs parents in Indiana and advised them of their
concerns about Plaintiff because they knew he was actively psychotic and unstable. However, no
further action was taken. Plaintiff was still a danger to himself and others, and within nine days,
he was charged with three additional felonies. He has been in jail since then and was finally
stabilized after spending an additional three weeks in Cermak. Plaintiff seeks monetary damages
for medical malpractice and negligence and, as defendants, Plaintiff names Cook County
Correctional Facility/Cermak, and Mt. Sinai Hospital.
Even construing Plaintiffs complaint liberally and in the light most favorable to him, the
Court cannot make out a cognizable federal claim in his allegations. As best as the Court can
discern, the crux of Plaintiffs claim is that defendants should have involuntarily committed him
and thereby prevented him from committing additional crimes. However, "[d]ue process protects
people from being unlawfully restrained; it provides no right to be restrained. lawfulLv_oF
otherwise.” Cblhgnon v. Milwaukee Cty , 763 F.3d 982, 987 (7th Cir. 1998); Wilson v.
Formigoni, 42 F.3d 1060, 1065-66 (7th Cir. 1994) ("there is no constitutional right to be
deprived of liberty—there. is_no right to be imprisoned, and none to be involuntarily
committed in a mental health facility")'; cf Archie v. City ofRacine, 847 F.2d 1211, 1221 (7th >/
Cir. 1988) (en banc) ("[T]he Due Process Clause does not require the state to imprison [insane
persons]^or_protectits citizens from them.").
Because he is a pre-trial detainee, any federal claim Plaintiff might have arising out of how
his psychiatric condition was managed at Cook County Jail is governed by the Due Process Clause
of the Fourteenth Amendment. See Miranda v. County of Lake, 900 F.3d 335, 353-54 (7th Cir.
2018). To establish a medical care claim under the Fourteenth Amendment, Plaintiffs allegations',
must make a plausible showing that (1) he has a serious medical condition (an element the court '
finds to have been sufficiently alleged), and (^Tthe defendant’s conduct with respectlo~lhose
conditions is objectively unreasonable. Smith v. Dart, 803 F.3d 304, 309-10 (7th Cir. 2015). The
second part of the test requires "more than negligence but less than subjective intent—somethingakin to reckless disregard." Miranda, 900 F.3d at 353-54. In this case, however, Plaintiffs
allegations suggest, at most, medical malpractice or negligence—which is precisely how Plaintiff

'

frames his own claims, see Dkt 1. at 7—thus, it is clear that Plaintiff has not stated a viable § 1983
claim. See Dixon v. Cty. of Cook, 819 F.3d 343, 350 (7th Cir. 2016) (establishing liability under §
1983, "requires the plaintiff to be able to prove facts from which something more than negligence
or even~medical malpractice can be interred'1).

r

In addition, "to be liable under § 1983, an individual Defendant must have caused or
participated in the . . . deprivation [of federal right]." Pepper v. Village of Oak Park, 430 F.3d
809, 810 (7th Cir. 2005). To state ajdaim against a particular defendant, Plaintiff must allege
facts from which it may be reasonably inferred that the defendant had some personal
lr.
involvement intlie" alleged deprivation. Cf Gentry v. Duckworth,
1995) ("To recover damages under § 1983, a plaintiff must establish that a defendant was
personally responsible forthe deprivation of a constitutional right >t * * * [T]he defendant ’"must
know about theTcondition/conduct] and facilitate it approve it condone it, or turn a blind eye . .
. .'") (quoting Jones v. City of Chicago, 856 F^2d 9857992 (7th Cir. 198H)). Plaintiffs Tomplaint
fails to allege facts from which it mav he reasonably inferred that any defendant was personally
involved in anv alleged deprivation of federal right. If Plaintiff desires to pursue a § 1983 claim,
he must file an amended complaint that names as defendants individuals whom he believes
deprived him of a federal right and, as to each such named defendant, the complaint must contain
allegations that link specific conduct on the part of the defendant to Plaintiffs alleged
deprivation of federal right.
Plaintiff is further advised that he has not named a proper defendant for a claim under 42
U.S.C. § 1983. Cook County Correctional Facility/Cermak is not a suable entity. Manney v.
Monroe, 151 F. Supp. 2d 976, 988 (N.D. Ill. 2001) ("Cermakis a department within Cook County,
with no legal existence, and, therefore, is not a suable entity."). Although Cook County could be a
proper defendant in a $ 1983 action, Plaintiffs complaint contains no allegations that would
support a municipal liability claim ('i.e.. that the deprivation of federal right he allegedly suffered
was the result of official policyTpra(Tic^FTuStO'm~oflhFTmimcipaIity, see Monell v. Dept, of
SociaTServices ot City ofNew York, 435TJ.S. bS87690~fT9?8fyT
The Court cautions Plaintiff that an amended complaint supersedes prior complaints and
must stand complete on its own. If accepted, the amended complaint would control this case, and
the court will look only to the amended complaint, and not to any prior complaints, when
determining the claims and parties in this action. Plaintiff must therefore include all the claims he
seeks to bring and list all the parties he seeks to sue in this case in the amended complaint. If there
are exhibits he wants the court to consider when conducting its initial review, he should include
them with the amended complaint. Any amended complaint must be submitted on the Court's
required form. See Local Rule 81.1. Any amended complaint also must comport with Federal Rule
of Civil Procedure 11. Rule 11 provides that by signing a pleading, a party represents to the Court
that his claims are warranted by existing law and that the factual contentions have evidentiary
support or likely will have evidentiary support after further investigation. Fed. R. Civ. P. 11(b).
The clerk will send an amended complaint form and a blank USM-285 form to the Plaintiff.
The Court instructs Plaintiff to file all future papers concerning this action with the Clerk
of this Court in care of the Prisoner Correspondent. Every document submitted by Plaintiff must
include a certificate of service indicating the date on which Plaintiff gave the document to prison

authorities for mailing. Any letters or other documents sent directly to a judge or that otherwise
fail to comply with these instructions may be disregarded by the Court or returned to Plaintiff.
Plaintiff is advised that he must promptly submit a change-of-address notification if he is
transferred to another facility or released. Failure to do so may lead to dismissal of this action for
failure to comply with a Court order and for want of prosecution.
Date: 8/12/2019
MATTHEW F. KENNELLY
United States District Judge

